Office of the

FEDERAL PUBLIC DEFENDER
for the District of Arizona
Capital Habeas Unit
Jon M. Sands

direct line: 602-390-3125
email: lindsey_layer@fd.org

Federal Public Defender

September 17, 2019
[CAPITAL CASE]
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE: Larry Benzon, Warden, Utah State Prison, v. Troy Michael Kell, No. 19-239
Dear Mr. Harris:
The petition for writ of certiorari in the above-captioned case was filed on August
21, 2019, and placed on the docket on August 23, 2019. The response is currently due on
September 23, 2019.
Under this Court’s Rules 15.3 and 30.4, Respondent Troy Kell respectfully requests
a 30-day extension of time to and including October 23, 2019, within which to file his
response. Counsel for Petitioner have indicated that they do not oppose this request.
Mr. Kell’s counsel received notice on Friday, September 13, 2019, that a multi-state
amicus brief will be filed on September 23, 2019, in support of Petitioner’s claims. Mr.
Kell would like the opportunity to review the amicus brief and to address any additional
arguments in his response, if necessary.
Furthermore, Mr. Kell’s counsel have obligations before various courts that would
make it difficult to complete the response by the current deadline. The undersigned is
appointed counsel in five capital habeas cases. Since the Petition in this case was filed,
undersigned counsel filed a reply brief in the Utah Supreme Court related to this same case
on August 28, 2019, and currently has briefing due in the United States District Court for
the District of South Carolina on September 24, 2019, and an opening brief due in the
California Supreme Court on October 11, 2019.

850 West Adams Street, Suite 201, Phoenix, Arizona 85007
(602) 382-2816 / (800) 758-7053 / facsimile (602) 889-3960

The Honorable Scott S. Harris
September 16, 2019
Page 2
Co-counsel for Mr. Kell, Assistant Federal Public Defender Alexandra LeClair, is
currently appointed to seven capital habeas cases and one non-capital habeas case. Since
the Petition in this case was filed, co-counsel filed a reply brief in the Utah Supreme Court
related to this case and a responsive closing brief related to an evidentiary hearing in the
United States District Court for the District of Arizona. Ms. LeClair currently has an
opening brief due in the Ninth Circuit Court of Appeals on October 1, 2019, merits briefing
due in the United States District Court for the District of Northern California on October
8, 2019, and an opening brief due in the California Supreme Court on October 11, 2019.
Sincerely,

Lindsey Layer
Assistant Federal Public Defender
Capital Habeas Unit
cc: Tyler Green
Utah Solicitor General
350 N. State Street, Suite 230
Salt Lake City, UT 84114-2320
tylergreen@agutah.gov

